                                         CLOSEOUT FOR MOO010002
          This matter was raised with OIG in an August 22, 1996, letter the complainant' sent us
  in connection with another misconduct case. In her letter, the complainant raised the
  possibility that the subject? had committed misconduct in science by engaging in a pattern of
  selective citation that exaggerated the originality of the subjects' contributions to their field.'
  The complainant fiuther alleged that the subjects, in widely circulated private correspondence,
  bad recklessly claimed that the complainant had "duplicated" their work and that their claim
                                                                                        I
  had harmed her reputation and adversely affected her career.

          The complainant and the first subject are former collaborators. Since their
  collaboration ended, each has done work that draws on and develops ideas they used jointly in
  their collaboration, and, in doing so, each has cited the other's work. The complainant a f f m
  that the subject has made valuable and original independent contributions that build on their
 joint work and that scientists have considerable room for discretion in choosing what prior
 research to cite. However, the complainant suggests that the subjects (1) deliberately slighted
 the complainant's contributions; (2) recklessly alleged that the complainant committed
 misconduct by "duplicating" the subjects' work; and (3) unreasonably persist in their allegedly
 erroneous views of the literature and the complainant's contribution to it while ignoring
 evidence adduced by the complainant to refute that view. The complainant argues that, in
 view of their allegations, the subjects have a special responsibility to be scrupulously thorough
 and fair in their consideration of prior literature.

        OIG considered and rejected the possibility that the subjects' actions, taken together,
might constitute misconduct in science. We concluded that the complainant's inference that the
subjects had intentionally distorted the literature was unwarranted and that, if the subjects'
account of the literature was indeed distorted, there were numerous other possible explanations




                                     - --
for thisa4 We determined that any allegedly reckless allegations by the subjects did not occur
in the course of proposing, carrying out, or reporting on activities funded by NSF and
therefore fell outside our jurisdiction. We concluded that the subjects made significant

' D-.r                  of h-et
'Dr.
  p - r                       of t                h                e at the                                      (the
 first subject) and Dr.             of                   ~ o m ~ a n ~ (second
                                                                         t h e subject).
                 "w
   In their paper,                                                                      -"
4                111-.             the subjects acknowledge support f r o m e - t o                    the fmt
subject.                is entitled
                                  " -
4
  Among these are good-faith scientific differences about the significance of different past contributions, personal
animosities, and disinclination to attend closely to an unpleasant and contentious issue.


                                               Page 1 of 2                                      MOO-02
L
     .-
      + c

    * &
                                            CLOSEOUT FOR MOO010002

            acknowledgement of the complainant's contributions and, in light of this, their alleged failure
            to be scrupulously thorough and fair in their accounts of past work, though regrettable if true,
            could not be construed to be misconduct in science.

                   This inquiry is closed and no further action will be taken on this case.

            Cc: Integrity, IG




                                                  Page 2 of 2
